NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL


                        REVIEW OF THE
                     KING STREET STATION
                       PARKING GARAGE


                Report #OIG-04-07 December 8, 2004




                           Herbert S. Yolles
                          Inspector General


 Released By:                                  Auditor-in-Charge:


 William A. DeSarno                            Charles E. Funderburk, CPA
 Deputy Inspector General for Audits           Senior Auditor
                           TABLE OF CONTENTS


                                                                       Page

EXECUTIVE SUMMARY                                                       1

BACKGROUND                                                              3

REVIEW PROCEDURES                                                       4
     Purpose and Objectives                                             4
     Scope and Methodology                                              4

REVIEW RESULTS                                                          6
     Parking Garage Net Income has Steadily Declined                    6
     Internal Controls Over Parking Garage Income                       6
            and Expenses Are Weak
     NCUA Appears to be Receiving Its Appropriate Share                 11
            of Reported Parking Garage Net Income
     Parking Garage Contract Terms Appear Reasonable but                13
            Clarification and Additional Terms Are Needed to Protect
            NCUA’s Interests
     Agency and Contractor Comments                                     14

APPENDIX
     Management Advisory Report, September 25, 2003
                                EXECUTIVE SUMMARY


The King Street Station complex consists of four office buildings, a hotel and retail/restaurant
building. In 1996, the five owners of building space in the King Street Station complex,
including the National Credit Union Administration (NCUA), by and through Carr Real Estate
Services, Inc. (CRES), as the owner’s representative, entered into a Parking Management
Agreement (PMA) with Colonial Parking, Inc. (Colonial) for Colonial to serve as the garage
operator. Each of the five owners is entitled to one vote on matters pertaining to the parking
garage operation.

Net income resulting from parking garage revenue is divided among the five complex owners
according to the percentage of parking garage space owned by each. These interests range from
a low of 3.54 percent to a high of 32.72 percent, the latter representing NCUA’s share. As the
party with the largest ownership interest in the parking garage, NCUA has a greater financial
incentive to assume a leadership role in negotiating any changes to or improvements of the
parking garage operations. In tandem with assuming an enhanced leadership role, NCUA should
more actively and persistently monitor the parking garage operations and the parties’ overall
compliance with the contracts governing garage management and operations.

In 2002, the NCUA Chief Financial Officer expressed concern to the Inspector General that
revenue reports for the parking garage, for the previous five years, had shown a declining net
income trend. In response to this concern and because the Office of Inspector General (OIG) had
never reviewed or audited the parking garage operations, we decided to conduct this audit. Our
four main objectives were to (1) determine whether the Office of the Chief Financial Officer’s
(OCFO) identification of a declining income trend for parking garage revenue was valid; (2)
assess internal controls over the parking garage income and expenses; (3) determine whether
NCUA received its correct share of parking garage net income during the period covered by the
audit; and (4) review the reasonableness and current applicability of the parking garage contracts
and agreements.

Our review encompassed the years 1998 through 2002. We reviewed the PMA, the Parking
Operations Agreement, and interviewed personnel from NCUA, Colonial, and CRES. We also
performed an extensive review of the documents provided by NCUA, Colonial, and CRES. (See
page 4 for additional information on our scope and methodology.)

Early in this engagement, OCFO performed and provided to us some basic analyses suggesting
an alarming decline in parking garage net income since 1998. Our review and analysis supported
a declining trend, but demonstrated a flatter, less dramatic decline in garage net income than
reported by OCFO. (See page 6.)




                                                1
Overall, we found that weak NCUA internal controls and inadequate oversight of Colonial’s
financial reporting unnecessarily exposed the NCUA to potential fraud, waste, and abuse.
Because of Colonial’s inconsistent and incomplete reporting, it was not possible to identify the
dollar amount of revenue, if any, that went either uncollected or was not properly remitted to the
NCUA. (See page 6.)

Our review of the income and expense reports provided during the course of this audit indicated
that NCUA has been receiving its correct share of reported parking garage income. However,
we are unable to conclude that this determination is reliable because of the internal control
weaknesses noted in the report. Specifically, the documentation we acquired and reviewed was
incomplete or inadequate with regard to: (1) free or discounted parking permits which the owners
had not approved; (2) documentation to verify that the owners are receiving their appropriate
share of interest income; and (3) third party documentation to support some of Colonial’s
reported expenses. (See page 11.)

The contract terms we reviewed relating to the King Street Station Parking Garage appear
reasonable. However, there are some contractual areas which should be addressed to clarify
garage operating practices and/or to reduce risk exposure to NCUA and the other parking garage
owners. Unclear contract terms could lead to increased risk exposure to NCUA and the other
parking garage owners and may impact NCUA’s ability to hold Colonial accountable for parking
discrepancies, initiate monetary recoveries, and negotiate contract adjustments. (See page 13.)

The report includes 13 recommendations to assist NCUA in its oversight and monitoring of
parking garage operations. In general, NCUA needs to view and treat the parking garage
operation as a financial business entity, exercising the same due diligence and management
oversight as it does over its other financial entities. The key recommendation presented in this
report is for NCUA to officially designate a qualified contracting officer’s technical
representative (COTR), with the appropriate financial expertise, to administer and monitor the
parking garage contract. In responding to a draft of this report, NCUA’s Chief Financial Officer
informed us that he has already appointed the Deputy Financial Officer in OCFO’s Division of
Financial Control as the COTR for this contract.




                                                2
                                           BACKGROUND
The below grade parking garage facility located at King Street Station, Alexandria, Virginia,
services the NCUA (1775 Duke Street) as well as the following properties: 1900 Diagonal Road,
1800 Diagonal Road, 225 Reineker’s Lane, 1725 Duke Street, and 1755 Duke Street (the King
Street Station complex). The King Street Station complex consists of four office buildings, a
hotel and retail/restaurant space. A below grade parking garage was included in the construction
of the new complex, consisting of three levels, 1,186 parking spaces, and spanning the entire
complex. In September 1993, the NCUA Central Office and Region II regional office relocated
to the new office building.

On May 28, 1996, the five owners of building space in the King Street Station Complex,
including NCUA, by and through Carr Real Estate Services, Inc. (CRES) as the Owner’s
Representative, entered into a Parking Management Agreement (PMA) with Colonial Parking,
Inc. (Colonial) for Colonial to serve as the garage operator. The PMA incorporated by reference
an earlier agreement concerning the parking garage—the Parking Operations Agreement (POA),
dated February 28, 1990.1 Colonial continues to serve as the operator of the King Street Station
complex’s parking garage.

In general, the PMA requires Colonial to do the following:

    •   Operate, manage, and maintain the parking garage facility in accordance with the terms
        of the POA;
    •   Bill and collect all revenues due with regard to the operation of the garage facility and
        promptly deposit them in an interest bearing account;
    •   Maintain an accurate and efficient accounting system, and keep complete and accurate
        records of all receipts and disbursements;
    •   Pay to each owner, each month, its proportionate share of the net distributable income;
        and
    •   Submit to the Owners a proposed annual operating budget.

The initial term of the PMA was for 36 months, after which the agreement was to remain in
effect from month-to-month unless terminated by either party. The agreement currently
continues on a month-to-month basis.

Ownership interest is divided among the five building owners according to the number of
parking garage spaces owned and ranges from a low of 3.54 percent to 32.72 percent for NCUA.
Therefore, while NCUA is only one of five owners, it has the largest financial interest in the
parking garage.

Effective October 8, 2003, the owners agreed to empower a board of directors, consisting of one
representative for each of the five owners, to act on their behalf on all matters.

1
  Although NCUA was not an original party to the POA, because it was incorporated into the PMA its terms apply
to NCUA.


                                                       3
                                REVIEW PROCEDURES
Purpose and Objectives

In 2002, the NCUA Chief Financial Officer expressed concern to the Inspector General that
revenue reports for the parking garage, for the previous five years, had shown a declining net
income trend. Partially in response to this concern, but also because the Office of Inspector
General (OIG) had never reviewed or audited the parking garage operations, we decided to
conduct this audit. Our four main objectives were to:

       I. Determine whether the Office of the Chief Financial Officer’s (OCFO) identification
       of a declining income trend for parking garage revenue was valid;

       II. Assess internal controls over the parking garage income and expenses;

       III. Determine whether NCUA received its correct share of parking garage net income
       during the period covered by the audit; and

       IV. Review the reasonableness and current applicability of the parking garage contracts
       and agreements.

Scope and Methodology

Our review encompassed the years 1998 through 2002. We reviewed the contracts mentioned
above and interviewed personnel from NCUA, Colonial, and CRES. We also performed an
extensive review of the documents provided by NCUA, Colonial, and CRES.

We compared and analyzed NCUA’s and Colonial’s reporting of garage net distributable income
due to NCUA. We reviewed NCUA’s reporting of garage income for agreement with Colonial’s
reporting of Net Distributable income and for proper and consistent reporting of garage income
and expenses.

We gained an understanding of the garage financial work processes and, to some extent, the
internal controls in place related to those work processes. We limited our internal control testing
to NCUA, Colonial and CRES interviews, and reviews of supporting documentation (primarily
garage reports and expense supporting documentation) for irregularities.

With regard to NCUA’s share of parking garage net income, we reviewed income and expense
reports and supporting documentation. We traced reported garage income and expenses to
supporting documentation; performed trend, comparative, relationship, variance and
reasonableness analyses on such supporting documentation; and recalculated and traced net
distributable income due to NCUA.




                                                 4
Our review of the contracts and agreements governing the parking garage operations focused on
the parties’ compliance with and reasonableness of the contract terms and the potential for
conflicts of interest.

Our audit was conducted in accordance with Generally Accepted Government Auditing
Standards, except for the limited testing performed on internal controls as discussed above.




                                                5
                                     REVIEW RESULTS

I.        Parking Garage Net Income has Steadily Declined

Early in this engagement, OCFO performed and provided to us some basic analyses suggesting
an alarming decline in parking garage net income since 1998. Our review and analysis supported
a declining trend, but demonstrated a flatter, less dramatic decline in garage net income than
reported by OCFO. The chart below reflects the difference between OCFO’s garage net income
analysis and our adjustments to that analysis:


      $500,000

      $400,000

      $300,000
                                                                 OCFO
      $200,000                                                   Adjusted

      $100,000

           $0
                 1998    1999      2000     2001       2002



The basis for the differences noted in the chart above, were due to NCUA recordkeeping
inconsistencies. For instance:

      •   Parking income and expenses were not consistently reported in the cost elements prior to
          1999.
      •   The 1998 garage general ledger account did not include NCUA monthly permit expenses,
          a significant portion of NCUA garage expenses included in subsequent years.
      •   Postings of year end garage net income accruals were inconsistently applied in each year.

Moreover, we found that the primary cause for the drop in net income in 1999 was the loss of a
major tenant in the office complex, resulting in the loss of monthly permit revenue.

II.       Internal Controls over Parking Garage Income and Expenses are Weak

Overall, we found that weak NCUA internal controls and inadequate oversight of Colonial’s
financial reporting unnecessarily exposed the NCUA to potential fraud, waste, and abuse.
Because of Colonial’s inconsistent and incomplete reporting, it was not possible to identify the
dollar amount of revenue, if any, that went either uncollected or was not properly remitted to the
NCUA.




                                                   6
           A.      NCUA Internal Controls

             1. Contracting Officer’s Technical Representative (COTR)

The Director, Division of Procurement and Facilities Management (DPFM) serves as NCUA’s
primary contracting officer (CO).2 The CO is responsible for the general management and
implementation of the NCUA procurement program. The NCUA Procurement Manual (March
2003) provides that the CO may designate an individual to serve as his or her COTR. According
to the manual, the COTR “administers the technical components of the contract and is authorized
to inspect supplies and services for sufficiency . . ..”

The interviews and document reviews we conducted indicated that NCUA has never designated
a COTR to administer and monitor the parking garage contract. In recent years, a DPFM
administrative staff employee has acted as a COTR to this contract in an unofficial capacity.

Until 2003, NCUA had not been receiving any garage reports, other than the monthly
Distributable Net Income statement and a wire transfer copy showing the monthly distributable
net income paid to each owner. NCUA personnel did not review these two reports. Rather,
DPFM administrative staff told us that NCUA relied upon CRES to monitor the financial
operations of the garage. CRES confirmed that it acts not only as the owners’ representative but
also as reviewer of garage operations. For this reason, CRES stated that it saw no need to
distribute other garage reports to NCUA. However, as discussed below, we noted irregularities
in the garage reports, questionable reimbursed operating expenses, and a lack of documented
owner approval for parking programs and rates charged.

We realize that NCUA is only one of five owners and consequently receives only one vote
regarding the operation of the parking garage. Contract terms and conditions are worked out as
part of the agreement with all of the owners, not just NCUA. However, by not officially
assigning a contract COTR and outlining his or her duties and responsibilities, NCUA increases
the risk that the garage contract will not be monitored properly.

Recommendation 1: The NCUA CO should officially designate a qualified COTR, with the
appropriate financial expertise, to administer and monitor the parking garage contract.

             2. Colonial Budget

The PMA requires Colonial to submit to the owners and CRES a proposed annual operating
budget on or before September 1 of each year. Our review indicated that while Colonial submits
annual budgets to CRES, it does not distribute them to the owners. CRES subsequently reviews
and discusses this budget with Colonial. During the period from 1999 to 2002, NCUA neither
received nor reviewed Colonial’s annual budget.

Consequently, in order for NCUA to plan for its own annual budget for these years, it relied on
budget information it received from CarrAmerica, the contractor with responsibility for NCUA’s
overall building and facilities management. In its annual budget, CarrAmerica routinely
2
    DPFM is a constituent office within OCFO.


                                                 7
included a single line item of budgeted net profit or loss for garage distributable net income. Our
review of both budgets for the years 1999 to 2003 revealed that CarrAmerica’s projected annual
budgets for this line item differed from Colonial’s annual projections for the same years. CRES
explained that this difference is attributable to CarrAmerica’s earlier submission of its budget
projections.

By not receiving an annual detailed budget from Colonial, NCUA is unable to assess the
reasonableness of projected garage financial operations.

Recommendation 2: NCUA should insist on receipt, by September 1 of each year, of Colonial’s
annual budget. NCUA should also review both Colonial’s budget and the facilities management
budget for reasonableness and amend the facilities management budget for any material
differences.

       B.      NCUA’s Oversight of Colonial Financial Reporting

While we did not conduct a complete audit of Colonial’s internal controls, our review
unavoidably encompassed numerous financial reporting issues that directly affected NCUA’s
overall ability to monitor the parking garage contract.

         1.    Generally Accepted Accounting Principles

Colonial revenue and expense transactions are identified in the accounting system by garage
location code. The accounting method used by Colonial is cash basis for revenue and modified
accrual basis for expenses. This is an inconsistent application of the matching (revenue and
expense) principle of accounting.

Recommendation 3: NCUA should request that the garage operator adhere to generally
accepted accounting principles in recording and reporting garage revenues and expenses.

       2.      Revenue Reporting

Overall, we noted frequent hand written adjustments to Colonial computer generated reports,
discrepancies between related reports, and outright errors in others.

For example, we noted differences between Colonial and CRES’ respective Monthly Client
Listing report, which lists monthly permit holders, the number of permits issued, and amounts
charged.

We also noted unaccounted for handwritten adjustments to, errors in, and/or differences between
Colonial and CRES’s respective versions of the following reports:

   •   Unpaid Monthly Account report, which lists all monthly permit clients who are past due
       on their accounts;
   •   Managers Monthly Activity report, which shows daily ticket and cash receipt activity for
       daily/transient clients, validation and preferred parker program;


                                                8
   •   Posted Daily Income report, which records monthly the number of tickets and dollar sales
       for daily transient parkers;
   •   Validation Income report, which lists the monthly validation sticker sales by client; and
   •   Preferred Parker report, which records by client the monthly preferred parker income.

Therefore, it appears as though garage reporting internal controls are weak, calling into question
the accuracy and reliability of such reports.

Recommendation 4: NCUA should review all reports for sufficiency, completeness, and
consistency, and notify CRES of any discrepancies for prompt correction.

       3.      Monthly permit information

Because ninety percent of garage revenue is derived from monthly permits, we reviewed in detail
the monthly permit process. Colonial initially accepts monthly permit customer applications
(from owners, tenants, and non-tenants) either on-site at the garage or through Colonial’s
website. Colonial garage on-site staff or Colonial headquarters staff subsequently mail permits
and keycards to customers. Colonial produces and distributes to CRES a Monthly Client Listing,
which lists the monthly permit holder account billings.

We obtained copies of the Monthly Client Listing reports which were provided to CRES for the
period of our audit. We subsequently obtained copies of the Monthly Client Listing reports
directly from Colonial for the same period. Our review found that neither of the reports
accounted for all the sequentially numbered accounts which had been assigned. We also found
that the number of monthly permits identified on the Monthly Client Listing reports differed
between the reports CRES and Colonial provided. Additionally, the number of permits charged
under the Monthly Bills and Tickets expense did not agree with either of the Monthly Client
Listing reports provided by Colonial or CRES.

Because all the sequentially numbered accounts were not listed and, further, because there were
discrepancies between various Colonial reports with regard to the number of monthly permits
issued for any given month, we were unable to determine the total amount of billed monthly
permit revenue.

Recommendation 5: NCUA should require that Colonial provide a monthly report which lists
all the permit billings for that month as well as all sequentially numbered account holders.

       4.      Parking rates

With regard to parking rate increases, the contract requires that at least four of the five owners
must approve the monthly parking rates at the time Colonial’s annual budget is approved.
NCUA officials told us that while Colonial notified OCFO of scheduled parking rate increases,
neither Colonial nor CRES sought NCUA’s prior approval. CRES indicated that, upon receiving
the budget, CRES discussed the proposed rate increases with as many owners as possible and
made the final approval decision itself based upon any input the owners offered.



                                                9
Recommendation 6: NCUA should seek advance notice of proposed parking rate increases
prior to receipt of Colonial’s annual budget and require documentation as to owner approval of
parking rates.

       5.      Daily traffic logs

Besides monthly parking, the parking garage accommodates visitors seeking daily parking or
hourly parking at a prorated fee. Colonial is responsible for issuing hourly/daily parking tickets
and tracking incoming and outgoing traffic for each booth in a daily traffic log.

By scanning the traffic log for the period of October 1, 1998, through December 31, 2002, we
noted at least 71 errors. We found gates and shifts where the traffic counters were reset. The
closing traffic count by gate in most cases did not agree to the opening traffic count for the next
day. This may be due in part because the garage is not staffed 24 hours a day.

With regard to the daily fee collection, Colonial provided only one daily ticket account report
dated December 31, 2002. This report had one booth/shift report missing and we were unable to
trace miscellaneous tickets to any report. Additionally, Colonial does not provide a monthly
report listing the total number of tickets used.

Due to the irregularities noted in the traffic log and sampled daily shift report, along with the
absence of a monthly total ticket report, we were unable to assess the reasonableness of ticket
parking activity.

Recommendation 7: NCUA should require Colonial to provide a monthly summary ticket report
accounting for all tickets used by type (daily, validated, preferred parker, void etc.).

       6.      Validation program and Preferred parker program

Colonial sells validation stickers to building owners or tenants which can be used to provide free
parking for their customers or clients. In addition to stickers, Colonial has also provided two
restaurants in the King Street Station with a rubber stamp for validations good for three hours of
free parking. Colonial’s preferred parker program consists of a card Colonial provides to its
preferred parker clients which can be used to park at any Colonial garage. Clients are billed, at a
discounted rate, by Colonial for the parking charges on the card.

While the rates charged for parking validation stickers are the same as the hourly parking rates,
the separate King Street Station complex owners had different and at times inconsistent
validation issuance policies. There was no documented evidence that the owners had approved
any validation programs. In addition, some tenants had unauthorized validation programs
whereby visitors did not pay for parking at all.

With regard to the preferred parker program, it appears that Colonial instituted this program
without the approval or participation of the complex owners.




                                                 10
Recommendation 8: NCUA should consult with the other complex owners regarding approving
a validation program with consistent terms and conditions and, subject to the approval of the
owners, a preferred parker program. In the meantime, NCUA should consult with CRES
regarding the cessation of the preferred parker program.


III.       NCUA Appears to be Receiving its Appropriate Share of Reported Parking Garage
           Net Income

Our review of the income and expense reports provided during the course of this audit indicated
that NCUA has been receiving its correct share of reported parking garage income. However,
we are unable to conclude that this determination is reliable because of the internal control
weaknesses noted above. Specifically, the documentation we acquired and reviewed was
incomplete or inadequate with regard to the following:

       •   Colonial and/or CRES may be disbursing or retaining free or discounted parking permits
           which the owners have not approved;
       •   The owners are not receiving their appropriate share of interest income based on actual
           garage gross receipts because Colonial is not depositing garage receipts in an interest
           bearing account; and
       •   We found a lack of third party documentation to support some of Colonial’s reported
           expenses. Moreover, other expenses may not be allowable under the garage agreements.

       A. Unsupported Free Parking—Colonial and CRES

According to the POA, Colonial can issue additional parking permits after the owners receive
their allocation of monthly parking permits. There is no provision for CRES to have free parking
spaces. Colonial and CRES staff informed us that Colonial receives five free parking spaces,
while CRES reserves for its free use nine spaces.

During our review, we requested that Colonial and CRES provide us with documentation
supporting these free parking arrangements. Documents from Colonial show that its free parking
spaces appear on the Monthly Client Listing reports it generates. CRES, on the other hand,
indicated that there is no agreement or report to support and document its self-allotment of
spaces. Rather, CRES informed us, it was the industry practice for owners’ representatives to
claim free parking.

Recommendation 9: NCUA needs to formally clarify with the other owners and with Colonial
and CRES how many parking spaces should be provided to Colonial and/or CRES and whether
any of these spaces should be at no charge.

           B.     Hotel Parking Revenue

Our review indicated that, while the hotel is entitled under the contract to 150 reserved parking
spaces, it must pay the monthly reserved parking rate for them. We determined that the hotel has
paid less than the monthly reserved parking rate for the years under our review. We were unable


                                                  11
to find any documented owner approval to support this discounted parking rate. We estimated
that the lost income to NCUA from July 1999 to December 2002 was $53,833. We calculated
the difference between the tenant reserved space charges and the actual amounts paid by the
Hotel for the 42 month period stated above. We then multiplied this figure by the number of
allocated spaces for the Hotel. The resulting figure of $164,527 was then factored by NCUA’s
ownership interest percentage to arrive at $53,833 in lost income.

Recommendation 10: NCUA should consider whether to pursue recovery of its prorated share
of the income lost on the hotel’s arrangements, in the amount of $53,833 as well as rectify this
situation.

       C.      Interest Income

According to the PMA, Colonial is required to deposit gross receipts into an interest bearing
account with the interest accruing to the owners. We found that Colonial is not depositing garage
receipts in an interest bearing account. Colonial informed us that this is because banks do not
want to set up interest bearing accounts.

A calculation based upon the garage average monthly income times the estimated prevailing
market interest rates indicates that the garage lost approximately $12,032 in interest income for
the years 1998 through 2002. NCUA’s estimated share of this amount is $3,940. The total
estimated lost interest income was calculated by using the average monthly gross receipts times
the prevailing average savings account interest rate.

With regard to the accounts the revenue is deposited into, we found that Colonial uses several
bank accounts for parking garage receipts and disbursements. All but one of these accounts has
commingled receipts and/or disbursements with Colonial garage operations located elsewhere.

Recommendation 11: NCUA should require Colonial, pursuant to the PMA, to deposit all
garage gross receipts in an interest bearing account, disburse the interest accruing to the
owners, and ensure that no future commingling occurs.

       D.      Expenses Incurred by Colonial

Overall, Colonial provided inadequate records with regard to employee non-productive wages,
benefits, taxes, and insurance, for us to determine whether these expenses were being properly
incurred. For example, non-productive wages, benefits and taxes, and insurance expenses are
charged as a percentage of wages, as opposed to their actual cost. Moreover, we disagreed with
Colonial that the following should be considered legitimate and allowable operating expenses:

   •   Accounting expenses – The monthly charges from 1999 to 2002 for daily deposit costs;
       statement preparation and wire transfers; totaling $12,012 for the garage ($3,930 NCUA
       portion) could be interpreted as disallowed by the PMA as administrative and overhead
       expenses;
   •   Trash and Janitorial expenses – Monthly Colonial billings from April 2000 to December
       2002 exceeded the cleaning subcontractor charges by $4,613 ($1,509 NCUA portion);


                                                12
   •   Supplies – Water and water cooler rental (monthly from February 1999 to December
       2002 totaling $4,462), courier services (monthly from February 2000 to December 2002
       totaling $455), Colonial billing processing fees (beginning in December 2001 totaling
       $164), refreshments (four instances totaling $64), and unsupported supply expense
       documentation (14 charges totaling $9,033) could be interpreted as disallowed expenses
       according to the PMA; and
   •   Modem and fax charges – These charges, averaging $40 per month, are not listed as
       allowed telephone operating expenses according to the PMA.

Recommendation 12: NCUA should require that Colonial maintain accurate and up to date
records of employee wages, non-productive wages, benefits, taxes, and insurance. Further,
NCUA should decide, in conjunction with the other owners, which expenses constitute valid
garage operating expenses and whether to seek reimbursement for charges it considers
disallowed.


IV. Parking Garage Contract Terms Appear Reasonable But Clarification and Additional
Terms Are Needed to Protect NCUA’s Interests

The contract terms we reviewed relating to the King Street Station Parking Garage appear
reasonable. However, there are some contractual areas which should be addressed to clarify
garage operating practices and/or to reduce risk exposure to NCUA and the other parking garage
owners. During our audit we issued a Management Advisory Report (MAR) (see Appendix ),
Report #OIG-03-09, on September 25, 2003, discussing the terms of both the POA and the PMA,
and that report is incorporated herein.

In general, while we concluded in our MAR that the overall terms of the contract were
reasonable, we found that it lacked completely or did not contain sufficiently clear contract terms
on numerous issues, including but not limited to the following:

   •   Termination dates
   •   Conflict of interest clause
   •   CRES compensation
   •   CRES’ authority
   •   Revenue report distribution to owners
   •   Validation programs
   •   Late payment penalties
   •   IG access clauses

Unclear contract terms could lead to increased risk exposure to NCUA and the other parking
garage owners and may impact NCUA’s ability to hold Colonial accountable for parking
discrepancies, initiate monetary recoveries, and negotiate contract adjustments.

Recommendation 13: NCUA should review the PMA and the POA to decide, in consultation
with the other owners, whether the contracts should be updated, clarified, or revised.



                                                13
Agency and Contractor Comments

We provided a draft of our report to NCUA’s Office of the Chief Financial Officer (OCFO); Carr
Real Estate Services (subsidiary of CarrAmerica); and Colonial Parking (Colonial).

We received detailed and constructive comments form OCFO and have made appropriate
changes throughout the report to address their comments. With respect to our main
recommendation (#1) that the Chief Financial Officer (CFO) designate a qualified Contracting
Officer’s Technical Representative (COTR) to administer and monitor the parking garage
contract, the CFO has already appointed the Deputy Financial Officer/NCUA in OCFO’s
Division of Financial Control, or his designated representative to be the COTR.

In responding to our draft report, CarrAmerica sought to clarify an observation made in our
Management Advisory Report (MAR), dated September 25, 2003, and attached as an appendix
to the draft “Review of the King Street Station Parking Garage” report (Report #OIG-04-05).
Specifically, CarrAmerica stated that “neither CarrAmerica, Carr Real Estate Services (an
affiliate of CarrAmerica) or any of its affiliates, has any ownership interest in any of the
properties that comprise King Street Station.” CarrAmerica was responding to the following
observation in our MAR: “[i]t is our understanding that the Carr Company and /or related
entities have an interest in three of the six owners currently receiving garage distributable
income.” At the time we issued the MAR, we relied upon information that we had obtained
during our then-ongoing review from CarrAmerica, Colonial, and the NCUA, that appeared to
provide contrary or incomplete descriptions of the different Carr entities and affiliates. We
recognized at that time that further information and documents were forthcoming and,
consequently, we intended the MAR as preliminary in nature. Indeed, for that reason we
intentionally did not state that CarrAmerica, Carr Real Estate Services, or any of CarrAmerica’s
affiliates had an “ownership” interest in the properties with ownership interests in the parking
garage.

In Colonial’s response, they emphasized their position that the tacit approval of all budgets, and
their adherence to them represent good faith actions conforming to fair industry standards and
practices for allocating payroll related and other expenses. Colonial specifically mentioned that
Preferred Parker programs are conducted solely at Colonial’s risk, crediting the garage account
as income whether Colonial is able to collect the fees from the customer or not. Finally,
Colonial stated that it reported income on a cash basis at the request of the Owners. Colonial
also stated that this is not their normal reporting methodology. Colonial said it considers its
expense reporting to be “accrual” rather than “modified accrual.”




                                                14
                         APPENDIX – MANAGEMENT ADVISORY REPORT



NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL


                  MANAGEMENT ADVISORY REPORT -
                   KING STREET PARKING GARAGE


                Report #OIG-03-09 September 25, 2003




                           Herbert S. Yolles
                          Inspector General


 Released By:                                  Auditor-in-Charge:


 William A. DeSarno                            Charles Funderburk, CPA
 Deputy Inspector General for Audits           Senior Auditor




                             Appendix - 1
TO:           Dennis Winans, Chief Financial Officer

FROM:         Herb Yolles, Inspector General
              (OIG-03-09)

SUBJ:         Parking Garage Management Advisory Report

DATE:         September 25, 2003



PURPOSE

The Office of Inspector General is reviewing the NCUA Parking Garage to (1) assess the internal
controls over the parking garage income and expenses; (2) determine whether NCUA is
receiving its correct parking garage net income; and (3) assess the reasonableness of revenue
variances and trends. In performing this review, we have a number of preliminary observations
regarding the Parking Operations Agreement (POA) and the Parking Management Agreement
(PMA). Since we understand that NCUA and the other Parking Garage owners have scheduled a
meeting to discuss, among other things, these two agreements, we are providing our preliminary
observations now, in the form of a Management Advisory Report, in order to provide timely
information for your use at the scheduled owners’ meeting. We will issue a final report on the
results of our review at the conclusion of our detailed audit.

OBSERVATIONS

                               Parking Operations Agreement

   1. The current agreement does not contain a termination date regarding the designation of
      the owners’ representative. Section 14 states that “..the Carr Company shall continue to
      act in such capacity (owners’ representative) as long as it is the Managing Partner of at
      least three of the Owners. The Owners shall select an Owners’ Representative by a
      majority vote of three or more of the Owners.” It is our understanding that the Carr
      Company and/or related entities have an interest in three of the six “owners” currently
      receiving garage distributable income.

   2. The current agreement lacks a conflict of interest clause regarding the owners’
      representative. It is our understanding that a Carr company related entity manages some
      of the building properties, manages the common areas and manages some of the retail
      leases.

   3. The current agreement does not state how or if the owners’ representative will be
      compensated. However, the NCUA Facilities Management Contract lists the garage




                                         Appendix - 2
   owner’s (NCUA only) representation as part of the Statement of Work. This contract is
   not in perpetuity, but is a five year contract.

4. There is no specific provision in the current agreement under what authority the owners’
   representative can bind the owners’ to contracts and/or agreements. Section 14 states,
   “The Owners’ Representative is authorized to communicate the approval and decision of
   the Owners and to submit to the Owners for their approval proposals of the Operator and
   proposals mutually agreed upon by the Operator and Owners’ Representative.”
   However, the agreement does not state if a majority of owners or all owners must agree
   to proposals. In addition, the agreement does not state that these proposals are to be put
   to writing.

5. There is no provision in the current agreement, that the owners’ representative should
   maintain a list of current owners.

6. King Street Station Retail is currently receiving monthly parking garage distributable net
   income. This entity is not listed as an owner of the parking garage. If this entity is an
   owner, the number of parking garage owners would be six, not five as discussed in the
   agreement.

7. There is no provision in the agreement discussing the sale of ownership interest in the
   garage.

8. The current agreement (Section 7iii) lists the NCUA with an ownership interest, and
   hence distributable income percentage of 35.75%. The NCUA currently receives a
   32.72% distributable income percentage.

9. The current agreement does not discuss when or how often owners’ meetings will be
   conducted or whether owners’ meeting minutes will be kept, put to writing and
   distributed to the owners. It is our understanding that scheduling of owners’ meetings is
   ad hoc and that not all meeting minutes have been distributed to the owners.

10. The current agreement does not require that all owner agreements (i.e. validation
    programs) be put to writing, dated and reflect owners’ votes via owner signatures. It is
    our understanding that the current validation programs’ terms have not been put to
    writing.

11. The current agreement does not require all owners’ representative and garage operator
    policies and procedures be documented and provided to the owners.



12. Section 7B of the POA states that garage reports are due by the 15th of the month to the
    owners. Section 5U of the PMA states that garage reports are due to the owners’
    representative by the 15th of the month. It is our understanding, that until recently,
    NCUA has not received all of the garage reports.



                                      Appendix - 3
13. Per the current agreement, hotel monthly contract provisions and validation programs
    differ from the other owners. These programs are to be instituted directly by the hotel
    and garage operator. There is no provision that the other owners agree to such programs,
    even though these programs may impact all of the owners’ distributable net income.

14. There is no provision in the current agreement of a due date for payment of monthly
    parking contract billings or penalty for late payments.

15. Section 7B states that the garage operator must distribute the net operating receipts and
    garage reports to the owners by the 15th of the succeeding month. However, there is no
    penalty provision for late payment of net operating receipts or late submission of reports.

16. The number of owner allocated parking contract/reserved spots appears to exceed the
    limit of the garage calculated spaces. Per section 7iii, there are 1,186 owned spaces.
    The number of contracts etc is as follows:
            Owner          number of contracts           Agreement section #
            King I         265                           3B
            King II        226                           3B
            King III       252                           3B
            King IV        300                           3B
            Hotel          150                           4A
            Retail         72                            5
            TOTAL           1265

17. All NCUA procurement contracts should include a blanket provision that the Inspector
    General, in the event of an audit, shall have access to any and all documents pertinent to
    the contract and the work performed thereunder.



                           Parking Management Agreement

1. The current agreement is between the owners’ representative and the garage operator per
   the Introductory Paragraph. There is no mention of the owners in the agreement.

2. Section 3C and 5Si seem to be in conflict as to late charges and penalty payments
   incurred by the garage operator and whether the garage operator is to pay these or
   whether these charges can be passed on to the owners for payment.

3. There is no provision in the current contract for the reporting of interest accrued and paid
   to the owners on the deposited receipts. See section 5R. It is also our understanding that
   the owners have not received any interest from the garage operator for deposited receipts.




                                       Appendix - 4
      4. Similar to comment #17 above, all NCUA procurement contracts should include a
         blanket provision that the Inspector General, in the event of an audit, shall have access to
         any and all documents pertinent to the contract and the work performed thereunder.

cc:      Executive Director, J. Leonard Skiles
         General Counsel, Robert M. Fenner




                                             Appendix - 5
